No.

IN THE
SUPREME COURT OF THE UNITED STATES

JONATHAN GODWIN - Petitioner
vs.
MARK S. INCH, SECRETARY, DEPARTMENT OF
CORRECTIONS, STATE OF FLORIDA - Respondents)

PROOF OF SERVICE
-j

I, Jonathan Godwin, do swear and declare that on this date,
2021, as required by Supreme Court Rule 29 I have served the ehcTosed MOTION
FOR LEAVE TO PROCEED IN FORMA PA UPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
Office of the Attorney General, Dept, of Legal Affairs. Concourse Center #4, 3507 E.
Frontage Rd., Suite 200, Tampa, FI 33607.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on.

^ 2021.

11

